Supreme Court. U.S
FILED

20 - CK
No. 21In The
SUPREME COURT of the UNITED STATES

Robert A. Heghmann,
Petitioner,

v.

Donald J. Trump and Wilbur Ross,
Respondents.

ON PETITION FOR A WRIT OF MANDAMUS TO THE
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA

PETITION FOR A WRIT OF MANDAMUS

Robert A. Heghmann
Pro Se
P.O. Box 6342
Virginia Beach, VA 23456
(603) 866 - 3089
; Bob
\ ,
■ r'"'.

V

i\

. 1

.

Heghmann@Reagan.com

OCT 2 5 2020
OFFICE OF THE CLERK

QUESTION PRESENTED

Should a Writ of Mandamus be issued to the United States
District Court for the Eastern District of Virginia in the case of
Heghmann v. Trump et al., Dkt. # 2:20-cvl59 requiring the Court to
request that the Chief Judge of the Fourth Circuit Court of Appeals
convene a Three-Judge Panel to hear a complaint challenging the
apportionment of Congressional Districts in Virginia and Nationally
alleged to be in violation of the One Person-One Vote Mandate.

TABLE OF CONTENTS
Page
QUESTION PRESENTED..
TABLE OF AUTHORITIES

1

.. m

INTRODUCTION,

1

OPINIONS BELOW

1

JURISDICTION

. 2

STATUTORY PROVUSIONS

2

STATEMENT

3

District Court Judge Arenda L. Wright Allen
Is without discretion as to whether or not to
request the Chief Judge of the Fourth Circuit
to convene a Three-Judge Panel in the case
below........................................

3

REASONS FOR GRANTING THE PETITION

5

A Three-Judge Panel is essential to
Preserve the Petitioner's right to appeal
an adverse opinion directly to this Court..

5

CONCLUSION..................................

5

APPENDIX 1: The Complaint filed in the
District Court

APPENDIX 2: The Opinion in Horsey v. Bysiewicz,
No. 3:99-cv-2250-SRU, 2004 WL 725363
(D. Conn. 2004)).
i

TABLE OF AUTHORITIES
CASES
Page
African American Voting Rights Legal Defense Fund
v. Villa, 54 F.3d 1345 (8th Cir. 1995)....................................

1

Baker v. Carr, 366 U.S. 186 (1962)......................................

2

Horsey v. Bysiewicz, No. 3:99-cv-2250'SRU,
2004 WL 725363 (D. Conn. 2004)).......................................

1

Igartua v. Obama, 842 F.3d 149, 156-57 (1st Cir. 2016),
cert, denied sub nom. Igartua v. Trump, 138 S. Ct. 2649
(2018).........................................................................................
Johnson v. DeGrandy, 512 U.S. 997 (1994)........................

1

Shapiro v. McManus, 136 S. Ct. 450 (2015) ......................

3

STATUTES
28 U.S.C. Sec. 1253

3

28 U.S.C. Sec. 2284 (a)....

3

28 U.S.C. Sec. 2284 (b)(1)

3

li

INTRODUCTION
Mr. Justice Soutar discussed the issues raised in this case in Johnson v. DeGrandy, 512
U.S. 997 (1994). In DeGrandy, California had created majority Hispanic voting districts in the
hope of electing Hispanic legislators. Despite this, the Hispanic candidates still lost. A legal
challenge was filed claiming voter dilution under Sec. 2 of the Voting Rights Act. As Mr. Justice
Souter writing for the Court noted, “The State protests that fully half of the Hispanic voting age
residents of the region are not citizens.” Id at 1008 The Court in considering demographic
evidence in determining dilution of Hispanic votes sanctioned the use of voting age population as
opposed to total population for apportionment purposes when dealing with Hispanic districts,
(emphasis added) Id., 512 U.S. at 1000; African American Voting Rights Legal Defense Fund v.
Villa, 54 F.3d 1345, 1352 - 53 (8th Cir. 1995) Mr. Justice Souter did not stop there, “The parties’
ostensibly factual disagreement (over the effects of demographics on voter dilution) raises an issue
of law about which characteristics of minority population (e.g. age, citizenship) ought to be the
touchstone for proving a dilution claim and devising a remedy. These cases may be resolved,
however, without reaching this issue.” Id., 512 U.S. at 1008.
Five years after the DeGrandy decision the Petitioner as a trial attorney
representing Wade Horsey filed Horsey v. Bysiewicz, No. 3:99-cv-2250-SRU, 2004 WL
725363 (D. Conn. 2004) (Three-Judge Panel), the case to which Mr. Justice Souter
referred. Wade Horsey claimed that the use of total population without regard to
citizen characteristics diluted his vote primarily due to the foreign-born, non-citizen
population. This is the case the Three-Judge Panel in Horsey correctly decided in
favor of Wade Horsey, a suburban voter. The Horsey Decision formed the basis for
the pending litigation.

The Horsey Court adopted what the Petitioner calls the “Horsey Rule”, that the
difference between the district with the highest percentage of foreign'born, non-citizens and
the district with the lowest percentage be not more than 10%. The Horsey Rule is based
squarely on the representation made by Madison in Federalist 57 which stated, “[e]ach
representative of the United States will be elected by five or six thousand citizens...”)
OPINIONS BELOW
There is no written opinion. It has been more than six months since the
Complaint was filed. The Complaint clearly challenges apportionment of
congressional districts in Virginia and calls for a Three-Judge Panel.
JURISDICTION
The case directly on point is Baker v. Carr, 366 U.S. 186 (1962). In Baker the
Plaintiffs, voters in an urban election district, alleged that, [b]y means of a 1901
statute of Tennessee arbitrarily and capriciously apportioning the seats in the
General Assembly among the State's 95 counties, and a failure to reapportion them
subsequently notwithstanding substantial growth and redistribution of the State's
population, they suffer a "debasement of their votes," and were thereby denied the
equal protection of the laws guaranteed them by the Fourteenth Amendment”.
(emphasis added) Ibid. In this case the Plaintiff takes no position as to whether or
not the Congressional Voting Districts were constitutional when originally
established. What the Plaintiff does claim is that by a failure to reapportion them
subsequently notwithstanding substantial growth and distribution of the State's
foreign born, non citizen population, he will suffer a "debasement of his vote" in the

2

2020 Congressional Elections and will thereby be denied the equal protection of the
laws guaranteed them by the Fourteenth Amendment”.
In Baker the Court concluded, [t]hat the complaint’s allegations of a denial of
equal protection presented a justiciable constitutional cause of action upon which
appellants are entitled to a trial and a decision. The right asserted is within the reach
of judicial protection under the Fourteenth Amendment.” Ibid. There is no question
that the Petitioner has standing and this Court has jurisdiction over this claim.
STATUTORY PROVISIONS
Under 28 U.S.C. Sec. 2284 (a) and 28 U.S.C. Sec. (b)(l) in a case involving a
challenge to apportionment of Congressional Districts, the District Court Judge must
notify the Chief Judge of the Circuit “immediately” that a Three-Judge panel is
required.
Under 28 U.S.C. Sec. 1253 a decision of the Three-Judge Panel would be
Appealed directly to this Court.
STATEMENT
District Court Judge Arenda L. Wright Allen Is without discretion
as to whether or not to request the Chief Judge of the Fourth
Circuit to convene a Three-Judge Panel

For all intent and purposes this Petition was decided in Shapiro v. McManus,
577 U.S. 450 (2015) where Mr. Justice Scalia writing for the court stated:

3

Petitioners’ sole contention is that the District Judge had no authority
to dismiss the case rather than initiate the procedures to convene a three-judge
court. Not so, argue respondents; the 1976 addition to §2284(b)(l) of the clause
unless he determines that three judges are not required” is precisely such a
grant of authority. Moreover, say respondents, Congress declined to specify a
standard to constrain the exercise of this authority. Choosing, as the District
Judge did, the familiar standard for dismissal under Federal Rule of Civil
Procedure 12(b)(6) best serves the purposes of a three-judge court, which (in
respondents’ view) is to protect States from “hasty, imprudent invalidation” of
their statutes by rogue district judges acting alone. Brief for Respondents 27.
Whatever the purposes of a three-judge court may be, respondents’
argument needlessly produces a contradiction in the statutory text. That text’s
initial prescription could not be clearer: “A district court of three judges shall
be convened. . . when an action is filed challenging the constitutionality of the
apportionment of congressional districts . . . .” 28 U. S. C. §2284(a) (emphasis
added). Nobody disputes that the present suit is “an action . . . challenging the
constitutionality of the apportionment of congressional districts.” It follows
that the district judge was required to refer the case to a three-judge court, for
§2284(a) admits of no exception, and the mandatory 'shall’ . . . normally
creates an obligation impervious to judicial discretion
The subsequent provision of §2284(b)(l), that the district judge shall
commence the process for appointment of a three-judge panel “unless he
determines that three judges are not required,” need not and therefore should
not be read as a grant of discretion to the district judge to ignore §2284(a). It
is not even framed as a proviso, or an exception from that provision, but rather
as an administrative detail that is entirely compatible with §2284(a). The old
§2284(1) triggered the district judge’s duty to refer the matter for the
convening of a three-judge court “[o]n the filing of the application” to enjoin an
unconstitutional state law. By contrast, the current §2284(b)(l) triggers the
district judge s duty [u]pon the filing of a request for three judges” (emphasis
added). But of course a party may—whether in good faith or bad, through
ignorance or hope or malice—file a request for a three-judge court even if the
case does not merit one under §2284(a). Section 2284(b)(1) merely clarifies that
a district judge need not unthinkingly initiate the procedures to convene a
three-judge court without first examining the allegations in the complaint. In
short, all the district judge must “determin[e]” is whether the “request for three
judges” is made in a case covered by §2284(a)—no more, no less, (citations
omitted) Ibid.
It has been more than six months since the Complaint was filed requiring the
District Court Judge to “immediately” advise the Chief Judge of the 4th Circuit to

convene a Three-Judge Panel and still no request has been made and no such request
appears to be forth coming. Critically important time has been and is being lost. This
Court should order the District Court to advise the Chief Judge of the Circuit
immediately to convene a Three-Judge Panel. Further, since the Petitioner has
already moved for Declaratory Judgment and the Respondents have filed their
Opposition to that Motion and have cross Moved to Dismiss, this Court should direct
the District Court to proceed expeditiously.

REASONS FOR GRANTING THE PETITION
A Three-Judge Panel is essential to Preserve the Petitioner's right to
appeal an adverse opinion directly to this Court

In case of an adverse Opinion in the Eastern District of Virginia which would
create a conflict with a Three-Judge Panel Decision directly on point in Connecticut
on an issue of national importance, the Petitioner would hope to Appeal the decision
to this Court to resolve the conflict under 28 U.S.C. Sec. 1253. That is only possible if
a Three-Judge Panel is convened.
CONCLUSION
This Court should issue a Writ of Mandamus to the District Court to
Immediately advise the Chief Judge of the Fourth Circuit that a Three-Judge Panel
is required and that once assembled the Three-Judge Panel should resolve the legal
issues expeditiously.

Respectfully submitted,

Robert A. Heghmann
P.O. Box 6342
Virginia Beach, Virginia 23456
(603) 866 - 3089
Bob Heghmann@Reagan.com
CERTIFICATION
A copy of this Petition has been mailed via First Class Mail, postage pre-paid,
to Counsel for the Respondents.

6

